                                                OFFICE OF INSPECTOR GENERAL
                                                                              MEMORANDUM




DATE:          June 22, 2010

TO:            Steven VanRoekel, Managing Director

FROM:          David L. Hunt, Acting Inspector General

SUBJECT:       Report on the Audit of the FCC’s Purchase and Travel Card Programs
               (Audit Assignment No. 09-AUD-09-28)

The Office of Inspector General is providing the report on the audit of the Federal
Communications Commission’s (FCC) Purchase and Travel Card Programs. The Office of
Inspector General engaged Lani Eko & Company to conduct the audit. The scope of the audit
was Fiscal Year 2009. The audit objectives were to:

   •   Evaluate the design and implementation of internal controls for the FCC’s travel card and
       purchase card programs.

   •   Determine if internal controls for travel card and purchase card programs were adequate
       to ensure that transactions were properly authorized, adequately documented, and
       properly accounted for.

   •   Test travel card and purchase card transactions to ensure that they were properly
       authorized, adequately documented, properly accounted for, and for appropriate,
       legitimate business purposes.

   •   Determine if the FCC’s travel card and purchase card programs are being effectively
       managed using guidance and best practices provided in OMB Circular A-123, Appendix
       B, Improving the Management of Government Charge Card Programs.

   •   Determine if travel and purchase card transactions funded by the American Recovery and
       Reinvestment Act of 2009 were awarded and administered in compliance with provisions
       of this Act.

The audit report identified six findings related to internal controls over the FCC’s Purchase and
Travel Card programs, including one finding for purchase and travel card transactions funded by
the American Recovery and Reinvestment Act of 2009. Management generally concurred with
five of the auditor’s six findings, but did not concur with one finding and one recommendation.
Management agreed that human resources were insufficient to perform effective oversight of the
Commission’s Charge Card program. However, management did not concur with
recommendation no. 3.1, that the Commission should decentralize some of the charge card
operations by assigning oversight and monitoring functions currently performed by Financial
Operations to the travelers respective Bureaus and Offices. The auditors did not agree with
management’s proposed actions. The auditor’s stated that they did not believe that maintaining
the current centralized review process for travel card charges would effectively resolve the reports
finding and reiterated their recommendation.

Additionally, management did not concur with finding no. 4, which stated that purchase
cardholders had not completed mandatory fraud training, as required by FCC policy. The
auditor’s responded that their finding was based on FCC policy in effect at the time of the audit.
However, management’s proposed corrective actions, which included revising the Commissions
directive to require Anti-Fraud training, meets the intent of the report’s recommendation.

Lani Eko & Company is wholly responsible for the enclosed report dated June 22, 2010.




Attachment

cc:    Wanda Sims, Associate Managing Director
       Mark Stephens, Chief Financial Officer
       PERM




                                                 2
MEMORANDUM


   DATE: June 22, 2010

TO:           David L. Hunt, Acting Inspector General – Federal Communications Commission

FROM:         Lani Eko, CPA, CGFM
              Partner

SUBJECT: Performance Audit of the Federal Communications Commission Purchase and
         Travel Card Programs


Attached is the subject final audit report that covers the results of the review of the Federal
Communications Commission (FCC) Purchase and Travel Card Programs and an evaluation of
the design and implementation of internal control related to the purchase and travel card programs
for the period from October 1, 2008 through September 30, 2009.

We identified six findings and made 16 recommendations to the FCC’s management. FCC’s
management did not concur with finding no. 4 and recommendation 3.2.

We considered the FCC’s management responses in issuing the final audit report.

We appreciate the cooperation given us during this review. If you have any questions, please call
me at (703) 647-7444.


Enclosure
AUDIT OF THE FEDERAL
COMMUNICATIONS COMMISSION
PURCHASE AND TRAVEL CARD
PROGRAMS

FY 2009




    FEDERAL COMMUNICATIONS COMMISSION
                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................................ 1



BACKGROUND ................................................................................................................................ 3



RESULTS OF AUDIT ........................................................................................................................ 6



   RECORD RETENTION .................................................................................................................. 6



   INTERNAL CONTROL – DELEGATION OF AUTHORITY .......................................................... 7



   OVERSIGHT OF THE GOVERNMENT CHARGE CARD PROGRAM......................................... 8



   COMPLIANCE WITH OMB CIRCULAR A-123, APPENDIX B – TRAINING ........................... 12



   IMPROVEMENT NEEDED FOR COMPLIANCE WITH THE REQUIREMENTS OF OMB
   CIRCULAR A-123, APPENDIX B ................................................................................................ 13



   IMPROVEMENT NEEDED IN THE OVERSIGHT OF AMERICAN RECOVERY AND
   REINVESTMENT ACT FUNDS .................................................................................................... 15



Appendix A – OBJECTIVES, SCOPE AND METHODOLOGY ................................................... 17



Appendix B – MANAGEMENT’S RESPONSE.............................................................................. 20




                          FEDERAL COMMUNICATIONS COMMISSION
                                        EXECUTIVE SUMMARY



The objectives of our performance audit of the Federal Communications Commission (FCC)
Purchase and Travel Card Programs were to: a) determine if internal control for the Purchase and
Travel Card Programs of the FCC are adequate, b) perform tests of purchase and travel
transactions to ensure that they were properly authorized, adequately documented, properly
accounted for and for appropriate and legitimate business purposes, c) evaluate whether the FCC's
 Purchase and Travel Card Programs are being effectively managed using guidance and
best practices provided in OMB Circular A-123, Appendix B, Improving the Management of
Government Charge Card Programs, and d) determine if purchase and travel card transactions
funded by the American Recovery and Reinvestment Act of 2009 (ARRA) were awarded and
administered in compliance with the provisions therein.

We conducted our audit in accordance with standards applicable to performance audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States. Our
audit covered the period from October 1, 2008 through September 30, 2009.

The FCC management's inability to make the travel card transactions for October and December
2008 available for examination precluded the necessary auditing procedures from being applied
to travel card transactions executed during that period. Accordingly, we were unable to
determine whether the travel card transactions for October and December 2008 were in
compliance with the provisions of OMB Circular A-123, Appendix B and the ARRA.

Additional details on the audit objectives, scope and methodology are provided in Appendix A of
this report.

During our audit, we noted the following matters relating to compliance with the provisions of
OMB Circular A-123, Appendix B, the American Recovery and Reinvestment Act of 2009, and
internal control over the purchase and travel card programs:

          FCC's management did not maintain adequate documentation for travel charge card
           transactions, in accordance with the FCC's record retention policies outlined in the FCC
           Travel Manual and guidance provided in the GAO Standards for Internal Control in the
           Federal Government.

          FCC officials who did not have a formal delegation of authority as the Approving
           Officials were authorizing purchases and travel, approving vouchers for payments, and
           reviewing and approving cardholder “Statement of Account” 1 reconciliations.
1
    The “Statement of Account” is the individual cardholder billing report. It is provided by the Bank Service
    Provider each month and lists all charge card transactions and payments for the billing period.


                                                                                                                 1

                        FEDERAL COMMUNICATIONS COMMISSION
      Weaknesses were noted in the controls implemented by FCC to ensure that the charge
       card program was performing in accordance with relevant federal laws and regulations
       and FCC Directive – FCCINST 1097.1, the FCC Guide & Instructions for Cardholders
       and Approving Officials, and the FCC Travel Manual.

      Insufficient human resources for personnel designated as Agency/Organization Program
       Coordinators impaired oversight of the FCC “Government Charge Card Program”.

      FCC's management did not provide evidence that all purchase cardholders and
       Approving Officials had completed the mandatory fraud-training segment of the COTR
       training offered by the FCC Contracts and Purchasing Center (CPC). Also, for one out of
       the 15 charge cardholders in our sample, FCC management was unable to provide
       evidence that the cardholder had completed the web-based GSA Purchase Card training
       prior to being issued a purchase card.

      FCC's Travel and Operations Group (TOG) did not develop and maintain a “Charge Card
       Management Plan” and charge card statistical data and performance metrics consistent
       with the requirements of OMB Circular A-123, Appendix B.

      Improvement is needed in the oversight of purchase and travel card transactions funded
       by the American Recovery and Reinvestment Act of 2009.

The FCC's Management's Response is provided in Appendix B. Management concurred with
our findings and recommendations except for finding no. 4 and recommendation no. 3.2. We
considered the management responses in issuing the final audit report. Additional details are
provided in the results of audit.




                                                                                         2

                  FEDERAL COMMUNICATIONS COMMISSION
                                              BACKGROUND


The Federal Communications Commission is an independent United States government agency
directly responsible to Congress. The FCC was established by the Communications Act of 1934
and is charged with regulating interstate and international communications by radio, television,
wire, satellite, and cable. It is directed by five Commissioners appointed by the President of the
United States and confirmed by the Senate. The Commissioners supervise all FCC activities,
delegating responsibilities to Bureaus, Offices, and staff units.

The Office of Managing Director, (OMD) is responsible for the agency’s financial policy and
financial management, including the management of its integrated 2- charge card program, which
is administered by the Travel and Operations Group (TOG). For fiscal year 2009, the TOG had a
staff of 3 full-time employees designated as the Agency/Organization Program Coordinators
(A/OPC’s). The A/OPC’s are responsible for opening and closing travel card accounts,
maintaining and updating employee account information, monitoring employee accounts for
misuse and delinquency, preparing misuse and delinquency notification letters, acting as the
primary liaison between the cardholders and the issuing bank, and answering cardholders
questions on the proper use of the integrated card. The A/OPC’s also ensure that all cardholders
at the FCC complete the GSA web-based travel card training.

Under GSA’s SmartPay Program, the FCC contracted with Bank of America (BoA) and
JPMorgan Chase for its Integrated Charge Card Program for fiscal year 2009. Approximately
200 FCC employees participate in this Government Charge Card Program. The bank vendor is
responsible for issuing individual charge cards to agency employees and enters into a credit card
agreement directly with the employee. Under the FCC agreement, the employee is responsible
for seeking reimbursement for official Government travel costs from the agency and paying the
credit card bill directly to the bank. Federal standards of conduct require federal employees to
pay their debts in a timely manner and the Federal Travel Regulation (FTR) specifically
prohibits the use of an individual’s travel card for any purpose other than official travel. Once
the employee uses the travel card, the employee must pay his/her own balance, in full and on
time, presumably from monies the agency has paid to the individual as a result of his/her request
for reimbursement.

However, because the employee is the responsible party on the individual account, the FCC is
under no obligation to pay the bill. The employee is obligated to pay the travel card bill, even if
they have not yet received reimbursement from the agency. The FCC APC’s are responsible for


2
    Effective November 30, 2008, the FCC transitioned from a separate charge card program with Bank of America to
    a single integrated charge card program with JPMorgan Chase, e.g., one card for all three programs (travel,
    purchase, and fleet).



                                                                                                         3

                        FEDERAL COMMUNICATIONS COMMISSION
monitoring the travel card accounts to verify these accounts are paid in a timely manner. 3 While
responsibility for payment rests with the employee, the FCC also has a responsibility to ensure
that accounts are paid monthly and in full. GSA’s master contract describes the agencies’ travel
card program responsibilities. These responsibilities include ensuring that cardholders use the
card only for authorized purposes by monitoring account activity, managing delinquencies and
misuse by notifying the employee and management of delinquent accounts, taking appropriate
disciplinary action, and, as a last resort, collecting the overdue amount from the employee
through salary offsets. Monitoring and managing delinquencies also helps the FCC to avoid
potential negative publicity that comes with unpaid accounts. 4

The American Recovery and Reinvestment Act of 2009 provided funds to the FCC to assist the
American people in their transition to digital TV. The ARRA specifies two programs under
which the FCC has responsibilities, the Digital-To-Analog (DTV) Converter Box Program
(education and outreach) and the Broadband Technology Opportunities Program. For the DTV
Converter Box Program, the ARRA states that the National Telecommunications and
Information Administration of the Department of Commerce may transfer up to $90 million in
funding to the FCC for consumer education and outreach.

The Travel and Transportation Reform Act of 1998 (TTRA), Public Law 105-264, requires
Federal employees to use travel charge cards for all payments of expenses related to official
Government travel, including hotels, transportation costs, and meals. By consolidating travel
expenditures with a single credit card vendor and by streamlining the process for advancing
travel funds to Federal employees, agencies reduce administrative costs associated with
processing federal travel.

The General Services Administration issues the Federal Travel Regulation (FTR) that
implements the requirements of the TTRA, and administers government travel cards through its
SmartPay program. Each government agency selects one of the five banks contracted by GSA as
their travel card provider and negotiates its own task order under the SmartPay master contract.
The task order identifies the specific charge card services the selected bank will provide to the
agency and documents the agreed upon fees, including any additional negotiated rebate
percentages.

Through December 2008, the FCC utilized its contract services with Bank of America for its
travel and purchase card programs. However, in December 2008, JPMorgan Chase replaced



3
    Each agency also has the option of having a centrally billed travel card account. Unlike with individual travel
    charge cards, under this option, the agency itself is responsible for payment of the centrally billed account, rather
    than the employee.
4
    The Federal Travel Regulation requires employees to submit requests for reimbursement within five days of
    completing their travel. It also requires agencies to reimburse an employee within 30 days of the employee
    submitting a proper claim for reimbursement to the approving official. If agencies do not reimburse the employee
    within the 30-day timeframe, the agency must pay interest to the employee for the late payment.


                                                                                                                 4

                         FEDERAL COMMUNICATIONS COMMISSION
Bank of America as the FCC’s Bank Service Provider and the FCC began the transition to an
integrated travel and purchase card program.




                                                                                      5

                 FEDERAL COMMUNICATIONS COMMISSION
                                   RESULTS OF AUDIT


We found that the FCC’s Travel and Operations Group had not implemented adequate levels of
internal control to ensure that purchase and travel card transactions were properly authorized,
adequately documented and properly accounted for. We also noted deficiencies in the
implementation of the guidance and best practices provided in the OMB Circular A-123,
Appendix B, Improving the Management of the Government Charge Card Programs.

                                    RECORD RETENTION
FINDING NO. 1

FCC’s management did not provide the individual cardholder “Statement of Account” or the
monthly charge card transaction activity file for the months of October 2008 and December 2008
for examination by the auditors. Additionally, the TOG did not maintain adequate
documentation for charge card transactions in accordance with the FCC’s record retention
policies outlined in the FCC Travel Manual and guidance provided in the Government
Accountability Office (GAO) Standards for Internal Control in the Federal Government.

GAO Standards for Internal Control in the Federal Government states that all transactions and
other significant events need to be clearly documented and that the documentation should be
readily available for examination. In accordance with the FCC’s Travel Manual, “All original
travel documents must be centrally filed (i.e., not in personal files) in the TOG for a period of
three years. All Field Offices are responsible for returning original travel documents at the
originating location for the same time period.”

Without appropriate and sufficient records of charge card transactions, the FCC is susceptible to
the risk that misuse, fraud and abuse of the charge cards may occur and not be detected.
Inadequate or the lack of records may also impair the ability of FCC management to audit charge
card transactions or research transactions as part of FCC management’s oversight of the charge
card program.

RECOMMENDATIONS

We recommend that FCC’s management:

1.1        Implement and enforce additional record retention policies and procedures for the
           charge card program that are consistent with the FCC Travel Manual and guidance
           provided in GAO’s Standards for Internal Control in the Federal Government.
           These additional procedures should include a policy for retention of original



                                                                                           6

                   FEDERAL COMMUNICATIONS COMMISSION
             documentation received from the charge cardholder and any periodic transaction
             reports generated by the TOG.

1.2          Request and maintain the electronic copies of the October 2008 and December 2008
             charge card transaction records from the Bank Service Provider. TOG should
             conduct a random review of charge card transactions for October and December 2008
             to determine if the charge card transactions were properly authorized, adequately
             documented and properly accounted for.

MANAGEMENT RESPONSE

Management concurred with the report’s finding and recommendations.


                    INTERNAL CONTROL – DELEGATION OF AUTHORITY
FINDING NO. 2

We found that FCC officials who did not have formal delegation of authority as Approving
Officials were authorizing purchases and travel requests, approving vouchers for payments, and
reviewing and approving cardholders’ “Statement of Account” reconciliations.

Of the 92 purchase and travel card transactions tested, we noted that FCC Officials who had not
been designated as Approving Officials approved:

         25 travel authorizations,

         19 travel vouchers for reimbursement,

         two monthly “Statement of Account” reconciliations, and

         four cardholder’s Form A-518, Request for Actual Subsistence.

FCC’s management was not properly monitoring and ensuring that the approval authority was
appropriate for the charge card transactions review and approval process, and that the approving
officials were cognizant of their fiduciary responsibilities. In addition, FCC’s management was
not properly monitoring the Approving Officials’ performance and periodically reviewing their
work (such as approval of travel authorizations, travel vouchers and reconciliations of statement
of accounts) to verify continued performance of their responsibilities under the charge card
program.

In accordance with GAO Standards for Internal Control in the Federal Government, transactions
and other significant events should be authorized and executed only by officials acting within the
scope of their authority. This is the principal means of assuring that government personnel


                                                                                          7

                     FEDERAL COMMUNICATIONS COMMISSION
initiate or enter into only valid transactions to exchange, transfer, use, or commit resources.
Authorizations of managers and employees responsibilities and functions under the charge card
program should be clearly communicated by the FCC Bureau and Office Chiefs. Also, the FCC
manual titled, Attention FCC Travelers, states that all travel documents (i.e., authorizations,
vouchers, and other required forms) must be specifically approved by a designated Approving
Official.

Because the responsibilities of all Approving Officials are not supported by formal delegation of
authority, the FCC is susceptible to the risk that the Approving Officials may not be aware of the
extent or limits of their responsibilities, and may not be held accountable for unauthorized
decisions or improper or abusive purchases.

RECOMMENDATIONS

We recommend that FCC’s management:

2.1         Conduct periodic reviews to determine if additional FCC officials should be
            designated as Approving Officials to improve the charge card transaction review and
            approval process.

2.2         Implement procedures for monitoring the Approving Officials’ performance to ensure
            that they are carrying out their responsibilities within their assigned formal authority
            under the charge card program.

MANAGEMENT RESPONSE

Management concurred with the report’s finding and recommendations.


             OVERSIGHT OF THE GOVERNMENT CHARGE CARD PROGRAM
FINDING NO. 3

FCC’s management did not provide adequate oversight and consistent enforcement of the
Government Charge Card Program requirements. We noted the following weaknesses in the
oversight and enforcement of the Government Charge Card Program requirements:

         FCC’s Administrative Operations Division and TOG did not perform monthly random
          reviews of purchase and travel card charges, respectively, as prescribed in the FCC’s
          policies and procedures to help ensure that purchases and travel charges were properly
          authorized and for official government purposes.

         Insufficient human resources for personnel designated as Agency/Organization Program
          Coordinators (A/OPC) exist for executing charge card program monitoring activities as


                                                                                            8

                    FEDERAL COMMUNICATIONS COMMISSION
            prescribed by the Administrator of General Services, the Treasury Financial Manual, and
            FCC directives, policies and procedures. For example, during our review, the FCC had
            three personnel classified as A/OPC and the most senior A/OPC had other significant
            responsibilities within the FCC. The three A/OPCs were responsible for monitoring
            charge card transactions for over 200 FCC charge cardholders.

           Agency/Organization Program Coordinators, Approving Officials, and cardholders were
            not following FCC's operating guidance for the charge card program. We noted
            instances where a transaction was executed above the cardholder's and Approving
            Official's single purchase limit, credit card charges were not adequately supported by
            receipts, and Automated Teller Machine (ATM) withdrawals were not properly
            authorized.

Specifically, of the 92 purchase and travel card transactions we examined, we noted the
following deficiencies:

         Finding                                      Deficiency                                        No. of
                                                                                                      Occurrences

             i.      Travel vouchers were not submitted to the Financial Operations                         30
                     Division (FOD) within 5 days of completing the travel.

            ii.      Individual cardholders’ monthly “Statement of Account”                                  4
                     reconciliations were not submitted to the FOD within 7 days of receipt.

            iii.     Form A-527, Record of Competition in Purchase Card Acquisitions,                        2
                     was not properly executed.

            iv.      ATM withdrawals were not properly authorized.                                           2

            v.       Charges shown on a cardholders’ monthly “Statement of Account”                          1
                     occurred outside the authorized travel period (Trip Id No. 686630 had a
                     credit card receipt with the dates of 10/08/09 - 10/11/09; authorized
                     period of travel was 9/20/09 - 9/24/09).

            vi.      Travel card charges for subsistence were not supported by properly                      1
                     executed Form A-518, Request for Actual Subsistence.

           vii.      Applicable questions/steps on Form A-526, Purchase Card Checklist                       2
                     were not addressed. Specifically the following was not addressed: Item
                     2 – “Split Order Purchase”; and Items 8 through 10 – “Phone Order”,
                     “Store Purchase” and “Notice of Credit Card Purchase”. 5



5
    Cardholders are responsible for recording on the “Purchase Card Checklist” the details of each transaction along
    with the mandatory signatures by both the purchase cardholder and the Approving Official. The Cardholder shall


                                                                                                            9

                        FEDERAL COMMUNICATIONS COMMISSION
        viii.      Per diem for the last day of travel exceeded the allowable amount.                             1
                   Allowable per diem per the Federal Travel Regulation was $36.75. The
                   amount charged, approved and reimbursed to traveler was $44.25.

         ix.       The Purchase Cardholder did not submit FCC Form A-521, Notice of                               1
                   Credit Card Purchase, to the Warehouse for Asset Management
                   purposes.

         x.        The purchase cardholder and Approving Official executed a purchase                             1
                   card transaction for $3,500. This transaction exceeded their single
                   purchase limit of $3,200.


GAO Standards for Internal Control in the Federal Government require that internal control be
designed to assure that ongoing monitoring occurs in the course of normal operations. Internal
control is performed continually and is ingrained in the agency’s operations. It includes regular
management and supervisory activities, comparison, reconciliations, and other actions people
take in performing their duties. Control activities are an integral part of an entity’s planning,
implementing, reviewing, and accountability for stewardship of government resources and
achieving effective results.

FCC Directive - FCCINST 1097.1, Use of Federal Government Purchase Card for Small
Purchases states, “All cardholders will be subject to indiscriminately selected monthly reviews,
to include all cardholders within a three-year period. Also, the cardholder and approving official
shall reconcile each “Statement of Account” received from the Purchase Card Contractor. Each
cardholder must maintain accurate and complete records to support all expenses, to include
receipts, vouchers, etc. in order to provide a complete audit trail upon review. In addition, the
Cardholder is responsible for recording on the Checklist the details of each transaction along
with the Mandatory signatures by both the purchase cardholder and the Approving Official. The
Cardholder shall retain the Checklist and all records of the transaction in his/her files for the time
period specified in FAR, paragraph 4.805(b) (10) with a minimum period of 1-year retention”.

In addition, FCC Directive - FCCINST 1097.1 requires that the Cardholder and the Approving
Official reconcile each “Statement of Account” received from the Purchase Card Contractor and
forward it to the Accounts Processing Branch of the FOD within 7 working days of its receipt.
In addition, in accordance with Federal Travel Regulation, Chapter 301-52.7, a traveler must
submit a travel claim within 5 working days after completion of trip or period of travel.

Per FCC Guide & Instructions for Cardholders and Approving Officials dated September 2004,
good recordkeeping is essential for efficient procurement and asset management, and to protect
the reputation of the agency and its workers, completion of the Form A-526 is required for each
transaction.


 retain the Checklist and all records of the transaction in his/her files for the time period specified in FAR,
 paragraph 4.805(b) (10) with a minimum period of 1-year retention.


                                                                                                                  10

                      FEDERAL COMMUNICATIONS COMMISSION
The lack of adequate controls over the FCC Government Charge Card operations could result in
non-compliance with applicable laws and regulations, included in FAR Part 13.301, Treasury
Financial Manual 4-4500, and the Federal Travel Regulation and increase the risk of misuse,
fraud, waste and abuse in the purchase and travel card program. Also, because Form A-526,
Purchase Card Checklist was not completed properly and not readily available for examination,
FCC management may not be able to determine whether purchase cardholders were in
compliance with the FAR and FCC procurement policies and procedures.

The FCC may be unable to process and pay charge card invoices within the 30-day timeframe
mandated by the Prompt Payment Act and the Federal Travel Regulation because the travel
vouchers and cardholder’s reconciled “Statement of Accounts” were not submitted timely to the
FOD.


RECOMMENDATIONS

We recommend that:

3.1       FCC’s Bureau and Office Chiefs and the Associate Managing Director for
          Administrative Operations monitor and ensure adherence to FCC directives, policies,
          and procedures relating to the management of the charge card program and the
          provisions of OMB Circular A-123, Appendix B, Improving the Management of
          Government Charge Card Programs.

3.2       FCC’s Managing Director decentralize some of the charge card program operations
          by assigning certain oversight and monitoring functions currently performed by TOG
          to FCC’s Bureau and Offices. For example, designated Bureau or Office personnel
          should be responsible for performing the monthly random review of purchase and
          travel charges for charge cardholders within their Bureau or Office and for ensuring
          that charge cardholders and approving officials have completed the required charge
          card program training. FCC’s Administrative Operations and TOG should conduct a
          periodic examination of a sample of the random reviews of purchase and travel
          charges performed by the designated Bureau or Office personnel to ensure that the
          reviews are adequate to detect improper charge card transactions.

3.3       FCC’s management continue to monitor and ensure compliance for timely submission
          of travel vouchers and the cardholders’ reconciled monthly “Statement of Account”
          to the FOD as outlined in FCC Directive - FCCINST 1097.1, Use of Federal
          Government Purchase Card for Small Purchases and Federal Travel Regulation,
          Chapter 301-52.7.

3.4       FCC’s TOG continue to perform periodic reviews of open travel authorizations on
          file and notify the travelers and Approving Officials of outstanding travel vouchers.



                                                                                         11

                  FEDERAL COMMUNICATIONS COMMISSION
MANAGEMENT RESPONSE

FCC’s management did not agree with recommendation no. 3.2 that designated Bureau or Office
personnel should be responsible for performing the monthly random review of purchase and
travel charges for charge cardholders within their Bureau or Office. FCC management stated
that the Bureaus and Offices are the entities being monitored and, therefore, would not be an
independent sources to review questionable transactions.

AUDITOR’S RESPONSE

FCC’s Administrative Operations Division and TOG did not have sufficient human resources to
adequately monitor the purchase and travel card programs for improper and abusive charge card
practices. Also, the Bureau and Office personnel are more familiar with the purchase and travel
activities within their Bureau and Office.


        COMPLIANCE WITH OMB CIRCULAR A-123, APPENDIX B – TRAINING
FINDING NO. 4

FCC’s management could not provide written evidence that purchase cardholders and Approving
Officials had completed the mandatory fraud-training segment of the COTR training offered by
the FCC Contracts and Purchasing Center (CPC). In addition, for one out of the 15 charge
cardholders randomly tested, FCC management was unable to provide written documentation to
support that the charge cardholder had completed the web-based GSA Purchase Card training
prior to being issued a purchase card.

OMB Circular A-123, Appendix B, states that all program participants including cardholders and
charge card managers ((A/OPC), Approving Officials, and other accountable/billing officials)
must be trained in charge card management.

FCC Directive - FCCINST 1097.1, Use of Federal Government Purchase Card for Small
Purchases, requires that all nominees for purchase card authority, as well as Approving Officials,
must complete the GSA Purchase Card web-based training prior to being issued a purchase card
or granted certification as an Approving Official. In addition, all cardholders must take the
fraud-training segment of the COTR training offered by the CPC. FCCINST 1097.1 also
requires that a Certificate of Completion of the training be submitted to the A/OPC prior to
issuance of the purchase card. Per the FCC Travelers Credit Card Program, the Chief Financial
Officer, Financial Operations, is responsible for monitoring training requirements for travel
charge cardholders. The Program Coordinator is responsible for:

      Ensuring that new travel charge cardholders complete the GSA on-line training within 30
       days of submission of their application to the TOG,



                                                                                          12

                  FEDERAL COMMUNICATIONS COMMISSION
         Maintaining a tracking system to monitor training requirements for charge cardholders,
          and

         Forwarding copies of charge cardholders’ training certificates to Human Resources.

Because FCC’s management is not effectively monitoring the charge card program to ensure
compliance with the training requirements mandated by OMB Circular A-123, Appendix B,
Improving the Management of Government Charge Card Programs; and FCC Directive -
FCCINST 1097.1, Use of Federal Government Purchase Card for Small Purchases, the FCC
charge card program may be susceptible to the risk of improper, abusive and fraudulent purchase
and travel charges

RECOMMENDATION

4.1          We recommend that FCC’s management monitor and ensure compliance with the
             charge card management and fraud training requirements mandated in OMB Circular
             A-123, Appendix B, FCC Directive - FCCINST 1097.1 and the FCC Travelers Credit
             Card Program.

MANAGEMENT RESPONSE

FCC’s management did not agree with the finding that the purchase cardholders had not
completed the mandatory fraud training segment of the COTR training.

AUDITOR’S RESPONSE

The auditor’s finding is consistent with the FCC’s directive that was in effect during the audit
period – October 1, 2008 through September 30, 2009. In its response, FCC’s management did
not question the validity of its directive cited in the report.

IMPROVEMENT NEEDED FOR COMPLIANCE WITH THE REQUIREMENTS OF OMB
                   CIRCULAR A-123, APPENDIX B
FINDING NO. 5

During our test of the FCC’s compliance with the provisions of OMB Circular A-123,
Appendix B, we noted the following:

         FCC’s management did not develop and maintain a “Charge Card Management Plan”.
          The Charge Card Management Plan includes federal agency policies and procedures for
          complying with the requirements of federal laws for the operations of the government
          charge card program, as outlined in OMB Circular A-123, Appendix B, Chapter 2.




                                                                                           13

                     FEDERAL COMMUNICATIONS COMMISSION
         The “Charge Card Management Plan” was not submitted to OMB, Office of Federal
          Financial Management by January 31, 2009, and

         FCC’s TOG did not maintain and report data and performance metrics consistent with the
          requirements of OMB Circular A-123, Appendix B, Chapter 5.

OMB Circular A-123, Appendix B requires that each agency develop and maintain a Charge Card
Management Plan that includes written policies and procedures for the appropriate use of charge
cards, consistent with the requirements of this guidance. It also requires that agencies update the
plan annually or more frequently, if necessary, to remain current, and submit a copy of their plan
to OMB, Office of Federal Financial Management, on an annual basis, not later than January 31
of each calendar year.

Because FCC’s management had not implemented the necessary policies, procedures, techniques
and mechanisms to ensure compliance with OMB Circular A-123, Appendix B, the efficiency
and integrity of the charge card program may be impaired and there is increased risk of fraud,
misuse and delinquency by charge cardholders.

RECOMMENDATIONS

We recommend that FCC management develop and maintain a “Charge Card Management Plan”
that is consistent with the requirements of OMB Circular A-123, Appendix B, Chapter 2.

Specifically, we recommend that FCC management:

5.1          Implement controls, policies and procedures to ensure efficiency and integrity of the
             charge card program by mitigating the risks of fraud, misuse, and delinquency.

5.2          Ensure that the Travel and Operations Group utilize charge card statistics and
             delinquency data to monitor policy compliance and inform FCC management
             decision-makers on actions required to achieve a more cost effective charge card
             program.

5.3          Develop and implement additional training that promotes managers and charge
             cardholders’ understanding of their roles and responsibilities under the charge card
             program.

MANAGEMENT RESPONSE

Management concurred with the report’s finding and recommendations.




                                                                                            14

                    FEDERAL COMMUNICATIONS COMMISSION
  IMPROVEMENT NEEDED IN THE OVERSIGHT OF AMERICAN RECOVERY AND
                   REINVESTMENT ACT FUNDS
FINDING NO. 6

We noted that improvement is needed in the oversight of the purchase and travel card
transactions funded by the American Recovery and Reinvestment Act of 2009. During our
examination of 43 purchase and travel transactions funded by the ARRA, we noted the
following:

      FCC Officials who had not been formally designated as Approving Officials, approved
       the following travel documents:

          i.   21 travel authorizations.

         ii.   17 travel vouchers for reimbursement.

        iii.   Form A-519, Request for Use of Private Vehicle in one instance.

        iv.    Form A-518, Request for Actual Subsistence in two instances.

      27 travel vouchers were not submitted to the FOD within 5 days of completing travel.

      One instance where the charges on the monthly “Statement of Account” were not
       supported by actual receipts (Trip Id No. 558374 in the amount of $561.20 for airfare).

      Three instances where the charges for the use of a private vehicle were not supported by a
       properly executed Form A-519, Request for Use of Private Vehicle.

The FCC Bureau and Office Chiefs were not properly monitoring and ensuring that the approval
authority was appropriate for the charge card transactions review and approval process and that
the approving officials were cognizant of their fiduciary responsibilities. In addition, the FCC
Bureau and Office Chiefs were not properly monitoring the Approving Officials’ performance
and periodically reviewing their work (such as approval of travel authorizations, travel vouchers
and reconciliations of statement of accounts) to verify sustained performance of their
responsibilities under the charge card program. Also, the Agency/Organization Program
Coordinators (A/OPC), Approving Officials, and cardholders were not following the FCC’s
operating guidance for the charge card program, and the human resources for personnel
designated as A/OPC were not adequate for effective monitoring of the charge card program.

OMB Circular A-123, Management’s Responsibility for Internal Control, states that within the
organizational structure, management must clearly define and appropriately delegate authority
and responsibility throughout the agency. Also, GAO Standards for Internal Control in the
Federal Government requires that transactions and other significant events be authorized and
executed only by persons acting within the scope of their authority.

                                                                                          15

                  FEDERAL COMMUNICATIONS COMMISSION
The Federal Travel Regulation requires that travelers submit a travel claim within 5 working
days after completion of his/her trip or period of travel.

Without a formal delegation of authority, the FCC Approving Officials may not be aware of the
extent or limits of their responsibilities, and may not be held accountable for unauthorized
decisions or improper or abusive purchases. Also, the lack of adequate controls over purchase
and travel transactions funded by the ARRA increased the risk of noncompliance with provisions
contained therein.

RECOMMENDATIONS

We recommend that:

6.1        FCC’s management conduct periodic reviews to determine if additional FCC officials
           should be designated as Approving Officials to improve the charge card transaction
           review and approval process, as discussed in Recommendation 2.1.

6.2        FCC’s management implement procedures for monitoring the Approving Officials’
           performance to ensure that they are performing their responsibilities within their
           assigned formal authority under the charge card program, as discussed in
           Recommendation 2.2.

6.3        FCC’s management continue to monitor and ensure compliance for timely submission
           of travel vouchers to the FOD, as discussed in Recommendation 3.3.

6.4        FCC’s Administrative Operations and TOG continue to perform periodic reviews of
           open travel authorizations on file and notify the travelers and approving officers of
           any outstanding travel vouchers, as discussed in Recommendation 3.4.

MANAGEMENT RESPONSE

Management concurred with the report’s finding and recommendations.




                                                                                          16

                  FEDERAL COMMUNICATIONS COMMISSION
         Appendix A – OBJECTIVES, SCOPE AND METHODOLOGY


The objectives of our audit of the Federal Communications Commission Purchase and Travel
Card Programs were to:

      Evaluate the design and implementation of internal control for the FCC’s purchase and
       travel card programs.

      Determine if internal control for purchase and travel card programs were adequate to
       ensure that transactions were properly authorized, adequately documented, and properly
       accounted for.

      Test purchase and travel card transactions to ensure that they were properly authorized,
       adequately documented, properly accounted for, and for appropriate, legitimate business
       purposes.

      Determine if the FCC purchase and travel card programs are being effectively managed
       using guidance and best practices provided in OMB Circular A-123, Appendix B,
       Improving the Management of Government Charge Card Programs.

      Determine if purchase and travel card transactions funded by the American Recovery and
       Reinvestment Act of 2009 were awarded and administered in compliance with provisions
       therein.

The audit period is October 1, 2008 to September 30, 2009. Our audit was performed in
accordance with Government Auditing Standards, January 2007 Revision and the Office of
Management and Budget’s (OMB) Circular A-123, Management’s Responsibility for Internal
Control. We did not perform an internal control review over FCC’s entire organizational
structure. Specifically, we examined those controls that exclusively pertained to monitoring of
the Purchase and Travel Card Programs, in which we identified weaknesses detailed in the
results of audit.

We gained an initial understanding of the charge card programs at FCC by reviewing GAO
reports, Independent Public Accountant reports, and FCC OIG reports and other FCC policies
and procedural manuals we deemed relevant.




                                                                                          17

                  FEDERAL COMMUNICATIONS COMMISSION
In accomplishing the audit objectives, we performed, but were not limited to, the following
procedures:

1. Reviewed and became knowledgeable of applicable laws and regulations, and FCC and GSA
   policies and procedures relevant to the government charge card program.

2. Interviewed officials of the FCC’s Travel and Operations Group and Financial Operations
   Division.

3. Obtained an understanding of the design and implementation of internal control for the
   FCC’s purchase and travel card programs.

4. Determined if the FCC had developed an effective management plan that includes written
   policies and procedures for the appropriate use of charge cards, consistent with the
   requirements of Office of Management and Budget (OMB) Circular A-123, Appendix B.

5. Examined purchase and travel card transactions to determine compliance with OMB Circular
   A-123, Appendix B.

The population for test of transactions consisted of the following:

       •    Bank of America Agency Master Statements for the purchase card program for the period
            of October, November, and December 2008.

       •    Bank of America Individually Billed Accounts (IBA’s) Statement for the travel card
            program for the period of November 2008. 6

       •    JPMorgan Chase detail transaction activity files for the period of December 2008
            through October 2009.

       •    Federal Financial Management System (FFS) travel and purchase card voucher
            payments posted to the general ledger for fiscal year 2009.
We utilized the above population to select fifteen (15) Bank of America transactions, which
represented approximately 25 percent or 3 out of 12 months of activity for FY 2009 and forty-
three (43) JPMorgan Chase transactions, which represented approximately 75 percent or 9 out of
12 months of activity for FY 2009. Also, we selected fifty-eight (58) payments related to the
ARRA.

We interviewed the FCC’s National Agency Program Coordinator who also has dual
responsibilities as the Acting Chief, Travel and Operations Group (TOG) and Chief of Revenue

6
    The FCC did not maintain adequate documentation for the travel card transactions, and as a result, the travel card
    transaction reports for October 2008 and December 2008 were not available for examination.


                                                                                                             18

                        FEDERAL COMMUNICATIONS COMMISSION
and Receivables. These interviews helped us gain an understanding of how the charge card
program is being administered at the FCC. In addition, we made inquires of FCC Management,
Bureau/Office Chiefs, Approving Officials and the Office of General Counsel. Inquires were
also made of personnel in various departments operating under the Office of the Managing
Director including TOG, Financial Systems Operations Group, Financial Operations, Human
Resource Management, Labor Relations and Performance Management Center, Learning and
Development Center, and Administrative Operations.




                                                                                    19

                 FEDERAL COMMUNICATIONS COMMISSION
Appendix B – MANAGEMENT’S RESPONSE




                                     20

FEDERAL COMMUNICATIONS COMMISSION
                                    21

FEDERAL COMMUNICATIONS COMMISSION
                                    22

FEDERAL COMMUNICATIONS COMMISSION
